Nos. 19-368 & 19-369
IN THE

Supreme Court of the United States
FORD MOTOR COMPANY,
PETITIONER,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, ET AL.,
RESPONDENTS.
.
FORD MOTOR COMPANY,
PETITIONER,
v.
ADAM BANDEMER,
RESPONDENT.
On Writs of Certiorari to the
Supreme Courts of Montana and Minnesota
BRIEF OF AMICUS CURIAE
CIVIL PROCEDURE PROFESSORS
IN SUPPORT OF RESPONDENTS

April 2, 2020

ALAN B. MORRISON
COUNSEL OF RECORD
GEORGE WASHINGTON
UNIVERSITY LAW SCHOOL
2000 H STREET NW
Washington, DC 20052
(202) 994-7120
abmorrison@law.gwu.edu

i

Contents
INTEREST OF THE AMICI................................... i
INTRODUCTION AND SUMMARY OF
ARGUMENT .......................................................... 2
ARGUMENT .......................................................... 6
THE JUDGMENTS BELOW SHOULD BE
AFFIRMED
The Battleground…………………………… .6
The Prior Common Understanding……... 10
The Pro-Defendant Revolution and
the Proper Response to It………..…………16
Coming Subtractions……………………….22
Amici’s Test is Reasonable…………………27
CONCLUSION ..................................................... 31

Authorities
Cases
Asahi Metal Industry Co., Ltd v. Superior Court,
480 U.S. 102 (1987…………………………...13, 26
BNSF Ry. Co. v. Tyrrell, 137 S. Ct. 1549 (2017) ... 8

ii
Bristol-Meyer-Squibb Co. v. Superior Court,
137 S. Ct. 1773 (2017……….……..…..9, 23, 27, 28
Burnham v. Superior Court, 495 U.S. 604 (1990) . 7
Daimler AG v. Bauman, 571 U.S. 117 (2014) .. 8, 14
Goodyear Dunlop Tires Operations, S.A. v. Brown,
564 U.S. 915 (2011)………………… 6, 8, 14, 18, 28
Helicopteros Nacionales de Colombia, S.A. v. Hall,
466 U.S. 408 (1984) ................................................ 17
Hinrichs v. General Motors of Canada, Ltd., 222
So. 3d 1114 (Ala. 2016).................................... 15, 26
International Shoe Co. v. Washington, 326 U.S.
310 (1945)... ………………...…………..........Passim
J. McIntyre Machinery, Ltd. v. Nicastro, 564 U.S.
873 (2011) ................................................................. 26
Montgomery v. Airbus Helicopters, Inc., 414 P.3d
824 (Okla. 2018) ...................................................... 16
North Carolina Department of Revenue v. The
Kimberley Rice Kaestner 1992 Family Trust, 139
S. Ct. 2213 (2019) …………………..…………….6, 30
Phillips Petroleum Co. v. Shutts, 472 U.S. 797
(1985) ......................................................................... 29
Pike v. Bruce Church, Inc., 397 U.S. 137 (1970) .. 20
Walden v. Fiore, 571 U.S. 277 (2014) ................. 7, 19
World-Wide Volkswagen v. Woodson, 444 U.S. 286
.(1980)……………………………….……3,..7, 12, 25

iii
Constitution
Article III ........................................................................ 9
Dormant Commerce Clause ............................... 20, 22
Due Process Clause ................................................ 3, 22
Statutes
28 U.S.C. §1441 .................................................... 10
28 U.S.C. §1453 .................................................... 10

Other Authorities
A. Benjamin Spencer, The Territorial Reach of
Federal Courts, 71 Florida Law Rev. 979 (2019)
........................................................................... 31
Alan B. Morrison, Safe at Home: The Supreme
Court’s Personal Jurisdiction Gift to Business,
68 De Paul L. Rev. 517 (2019) ......................... 22
Arthur Conan Doyle, The Adventure of Silver
Blaze, in THE COMPLETE ADVENTURES
AND MEMOIRS OF SHERLOCK HOLMES 1
(Harper Bros. ed. 1894) .................................... 13

1

INTEREST OF THE AMICI 1
The amici are law professors who teach civil
procedure, including personal jurisdiction, which is
the subject of this petition. Helen Hershkoff,
Arthur Miller, and John Sexton teach at New York
University Law School; Alan Morrison teaches at
George Washington University Law School. Law
schools are listed for identification purposes only.
The amici have no pecuniary or other interest in
the outcome of these cases.
They are filing this brief in support of
respondents because they believe that the Court’s
recent creation of a rigid division of personal
jurisdiction cases into general and specific
jurisdiction, with an increasingly narrow
understanding of the specific prong, has given
large business defendants an unjustified forumshopping advantage over plaintiffs. According to
petitioner, major manufacturers that sell their
products throughout the United States can only be
sued in a few states, which do not include where
the plaintiff’s injury occurred or in which all other
potentially responsible defendants can be joined.
Because of the way that defendants are
seeking to apply this Court’s specific jurisdiction
No person other than the amici has authored this brief in
whole or in part or made a monetary contribution toward its
preparation or submission. Petitioners have filed a blanket
consent and respondents have consented to the filing of this
brief.

1

2
decisions, the law of personal jurisdiction is
becoming divorced from its purpose, which is to
prevent plaintiffs from dragging out-of-state
parties into a forum with which they have no
connection. Instead, these rulings have created a
situation in which it is now major businesses, like
petitioner, that are able to force plaintiffs to sue
them in states that have little or no connection to
the claim at issue and thereby turn the doctrine of
personal jurisdiction on its head. Amici are filing
this brief to propose an approach covering
companies that regularly sell thousands of their
products annually to consumers in every state,
which is easy to administer, predictable, and fair to
all parties.
INTRODUCTION & SUMMARY OF
ARGUMENT
The plaintiffs in these routine personal
injury cases sued where they were injured. The
defendants in 19-369 included parties from the
jurisdiction where the accident occurred and
petitioner Ford Motor Company (“Ford”). The
claim against Ford is that the vehicle in which
plaintiff was riding was defectively designed and/or
manufactured. Ford argues that the state courts
have no personal jurisdiction over these claims
because the wrongful conduct on which plaintiffs
rely, as well as the original sale of the vehicle, took
place in a state other than the forum state (and in
this case the sale was to a person other than the
plaintiff).

3
Ford is an international manufacturer of
motor vehicles, including the make and model
involved in both of these accidents. Ford currently
sells thousands of vehicles annually in both
Montana and Minnesota, and it sold thousands of
the make and model of the vehicle involved in each
accident in the relevant state, but it did not sell the
actual vehicle in that state to this plaintiff. The
notion that Ford may avoid defending these claims
in these states is at odds with the principles of
International Shoe Co v. Washington, 326 U.S. 310
(1945), which first brought the law of personal
jurisdiction into the world of 20th century
commerce. More significantly, it cannot be squared
with the fact that the manufacturer in World-Wide
Volkswagen Corp. v. Woodson, 444 U.S. 286 (1980),
did not even contest personal jurisdiction in
Oklahoma, even though the Audi at issue was
made in Germany and sold in New York.
The source of what is becoming a dramatic
reduction in the scope of personal jurisdiction over
major companies is the Court’s recent decisions in
which it adopted and gave significant legal
consequences to the difference between general
and specific jurisdiction. In those rulings, the
Court also created the rigid and narrow definitions
of both categories that has enabled Ford to present
what would have been an unthinkable argument
just a decade ago for avoiding personal jurisdiction
in states in which it regularly engages in major
business and sells the very make and model of the
products at issue in these cases.
Neither the Due Process Clause nor any
other portion of the Constitution provides for those

4
two categories of personal jurisdiction, let alone
requires that each be defined in a way that gives
undue advantage to large businesses at the
expense of individuals whom their products injure.
Amici agree that there is utility in limiting specific
jurisdiction to cases in which the defendant’s
conduct bears a reasonable relationship to the
forum state, but disagree that the connection
should be anywhere near as narrow as Ford and its
amici contend. Indeed, as we demonstrate below,
none of the holdings in this Court’s recent personal
jurisdiction cases would be changed if the position
of amici is adopted. In our view, it is only an undue
expansion of the dictum in those recent decisions
that has given Ford a basis to assert that the state
courts here lack personal jurisdiction over these
claims against it.
Amici have no objection to the use of specific
and general jurisdiction to describe the basic
difference between the former – for which the claim
must be related to the forum – and the latter, which
includes unrelated claims. This case presents the
question of how close that relationship must be for
Ford and other national manufacturers of products
that, if defectively designed or manufactured, or
significantly mislabeled, can cause serious physical
injuries or death. Ford insists that such claims
may be brought only where the design or
manufacturing defect took place, or at its Michigan
headquarters or in Delaware where it is
incorporated – or perhaps, if the car is still owned
by the first purchaser, where the injury happened,
provided that the injury occurred in the state of the
first purchase.

5
By contrast, amici submit that specific
jurisdiction in the forum state is met if the
defendant is a national manufacturer and seller of
a potentially dangerous product, which it regularly
sells in the forum state, and the injury occurred in
that state, regardless of whether the product at
issue was sold to this plaintiff in that state. That
test is easy to apply and produces results that are
predictable for everyone. That test also recognizes
that injuries from such products will inevitably
occur and that where they occur is happenstance.
Moreover, it recognizes that, for major companies
like Ford, the forum in which they must defend
such claims does not change its need to procure
insurance, hire counsel, provide discovery, and
have a trial. Those considerations are largely if not
entirely irrelevant to them, but very significant to
a plaintiff who must secure witnesses to the
accident and in most cases join other defendants
who can only be sued where the accident occurred.
Amici further urge the Court to limit its
ruling to cases, like this, in which the defendant is
a manufacturer of a potentially dangerous
consumer product, which it regularly sells in every
state, and it is being sued in tort for a defect in
design and/or manufacture of the product in the
state in which the plaintiff’s injury occurred. There
is no need to attempt to set forth a test that
includes cases in which the claim is in contract, or
the product is a component part and/or is sold only
to a business entity. Nor should the Court attempt
in this case to resolve specific jurisdiction questions
for claims of copyright or trademark or cases
involving the Internet.

6
Rather, the Court should do what it did in
another Due Process case last term, which involved
state taxation of accumulated trust income – limit
its “holding to the specific facts presented.” North
Carolina Department of Revenue v. The Kimberley
Rice Kaestner 1992 Family Trust, 139 S. Ct. 2213,
2221 (2019); id. at 2222 & note 8 (taxability will depend
“on whether the resident is a settlor, beneficiary, or
trustee . . . [and whether] the resident ha[s] some degree
of possession, control, or enjoyment of the trust
property or a right to receive that property” but
declining to “decide what degree of possession,
control, or enjoyment would be sufficient to support
taxation;” id. at 2226 (“we address only the
circumstances in which a beneficiary receives no
trust income, has no right to demand that income,
and is uncertain necessarily to receive a specific
share of that income”).
ARGUMENT
THE JUDGMENTS BELOW SHOULD BE
AFFIRMED.
The Battleground
The Constitution protects the liberty
interests of parties not to be forced to litigate in a
forum with which they have no connection. But on
a practical level, personal jurisdiction litigation is
all about forum shopping, for both plaintiffs and
defendants.
Thus, plaintiff may, as they did in Goodyear
Dunlop Tires Operations, S.A. v. Brown, 564 U.S.
915 (2011), want to avoid suing in a non-US court,

7
or, as in World-Wide Volkswagen v. Woodson, 444
U.S. 286 (1980), they want to sue where the claim
arose because the witnesses are there. In other
cases like Bandemer (No. 19-369), the plaintiffs
choose the forum because that is the court where
they maximize the chance that all potential
defendants can be sued. Sometimes, as appears to
be the case in Burnham v. Superior Court, 495 U.S.
604 (1990), a plaintiff may choose the forum
because it will inconvenience the defendant,
thereby giving the plaintiff a tactical advantage.
Or, as in Walden v. Fiore, 571 U.S. 277 (2014), they
may choose a particular forum because they believe
that the local jury will be especially understanding
of their situation – in that case, Las Vegas, where
carrying $97,000 in cash would not be seen as
aberrational, as it would in Atlanta where the
incident giving rise to their claim took place. In
some cases, there are multiple reasons why the
plaintiff, or more accurately, the plaintiff’s lawyer,
picks a forum.
Although the charge of forum shopping is
frequently leveled against plaintiffs, 2 it is no less
prevalent on the defense side. It may be an
overstatement, but only a small one, that the
Brief Amicus Curiae of Chamber of Commerce of the United
States in Support of the Petition for a Writ of Certiorari, 19368 at 5 (“despite this Court’s recent decisions, plaintiffs’
forum-shopping remains rampant”); Merits Brief Amicus
Curiae of PHARMA at 3 (despite BMS, plaintiffs have
continued “to engage in extensive forum shopping,
channeling plaintiffs from all over the country into a few
preferred fora that they perceive as unusually hospitable to
product liability suits”).

2

8
defense mentality is that, if plaintiff has selected a
given forum, that choice must have been made to
give the plaintiff an advantage, and so counsel for
the defendant should try to find a way to have the
case heard someplace else. At one time, defendants
may have wanted to move a case because it would
be more convenient for them, meaning for their
witnesses and counsel, and that rationale might
apply to individual defendants like Mr. Burnham.
But in cases involving large national corporate
defendants, those considerations are almost
irrelevant when the claims are for many million
dollars and where national counsel are hired for
the defense.
This does not mean that it is improper for
defendants to try to move cases to a favorable, or at
least more neutral, forum, which seems to have
been the motive in BNSF Ry. Co. v. Tyrrell, 137 S.
Ct. 1549 (2017), where the Montana state courts
had a reputation for favoring plaintiffs in cases
brought by railroad employees. 3 So, too, in both
Goodyear Dunlop Tires Operations, S.A. v. Brown,
564 U.S. 915 (2011), and Daimler AG v. Bauman,
571 U.S. 117 (2014), the defendants had a very
strong argument that the claims at issue had no
connection with the United States at all, and so had
to be brought in another country where the injuries
3 See Brief for Petitioner in BNSF, 2017 WL 818312, at *4
(noting plaintiffs chose Montana because “the Montana
Supreme Court has repeatedly subjected railroads to
plaintiff-friendly procedural rules and unfavorable
substantive FELA standards” and argued that Daimler
intended to “put a stop to this type of flagrant forum
shopping”).

9
occurred and the witnesses were located. In none
of these cases did the defendants have an objection
based on lack of notice or a meaningful opportunity
to be heard; they simply wanted their cases heard
elsewhere.
Then there are cases in the middle, like
Bristol-Myers-Squibb Co. v. Superior Court, 137 S.
Ct. 1773, 1778 (2017), where there were already 86
claims involving BMS’s drug Plavix brought by
California residents, in California state court. In
that situation, BMS’s decision to take its personal
jurisdiction case to the Supreme Court and to insist
that another 592 of the same claims must be filed
elsewhere, cannot have been about convenience or
fairness. On the other hand, the lawyers for the
non-California plaintiffs were not merely seeking
aggregation, which they could have obtained in
their home states, but sued in California because
they believed that they could get further
advantages from being in that forum.
The initial reaction of many students to
forum shopping is that it is somehow wrong, even
if not unlawful or unprofessional, until they realize
that it is practiced by both sides and that lawyers
who refuse to engage in the practice are doing their
clients a disservice. Not only is forum shopping not
improper, but it is blessed by Article III of
Constitution, which provides for diversity
jurisdiction in the federal courts so that eligible
plaintiffs can chose a federal forum if they believe
that it will better serve their clients. Similarly,
subject to some restrictions, defendants in
diversity cases can exercise their right to forum

10
shop by removing the case to federal court. 28
U.S.C. §§1441, 1453.
For these reasons, the debate over personal
jurisdiction defenses in cases involving major
business entities such as Ford should focus on the
legitimacy of the defense objection to the forum and
the legitimate needs of the plaintiff to have the case
heard there. Applying that analysis to these cases
makes clear that Ford’s motions were properly
denied. And, as we now demonstrate, a proper
analysis of the Court’s personal jurisdiction cases
supports that conclusion as well.
The Prior Common Understanding
The decision in International Shoe Co. v.
Washington, 326 U.S. 310 (1945), was a recognition
that the law of personal jurisdiction, as applied to
multi-state businesses, could no longer be bound by
its prior strict territorial limits. The concern that
state courts might reach too broadly was no longer
the sole or even dominant consideration in whether
a Washington state court would be permitted to
exercise personal jurisdiction over an out-of-state
defendant, in that case for a claim that the
defendant was required to pay unemployment
taxes for its employees who actually worked there.
The alternative would have been to require the
State to sue for those taxes in St Louis, where the
company was headquartered, or Delaware, where
it was incorporated. In upholding jurisdiction
there, the Court observed that International Shoe
was engaged in the systematic conduct of business
within the state and hence could be sued there.

11
Because the claim was based on conduct that took
place in the forum state, there was no need to
decide whether jurisdiction extended to claims that
did not arise there.
In the course of its opinion, the Court
enunciated the broad principles for which the
decision is known and from which subsequent
rulings received their guidance. Thus, the Court
observed that a defendant must “have certain
minimum contacts with [the forum state] such that
the maintenance of the suit does not offend
‘traditional notions of fair play and substantial
justice.’” 326 U.S. at 316 (citations omitted). The
Court then continued that the demands of due
process generally “may be met by such contacts of
the corporation with the state of the forum as make
it reasonable, in the context of our federal system
of government, to require the corporation to defend
the particular suit which is brought there.” Id. at
317.
For those corporations that exercise the
privilege of conducting business within the forum
state, that may give rise to certain obligations and
if those obligations “arise out of or are connected
with the activities within the state, a procedure
which requires the corporation to respond to a suit
brought to enforce them can, in most instances,
hardly be said to be undue.” Id. at 319. To be sure,
the Court made clear that a defendant’s “casual
presence” in the state or “even his conduct of single
or isolated items of activities in a state in the

12
corporation's behalf are not enough to subject it to
suit on causes of action unconnected with the
activities there.” Id. at 317. However, there is no
hint in International Shoe that a company whose
business within a state is, as Ford’s is in both states
here, “continuous and systematic,” id. at 317, could
nonetheless escape suit because the connection
with the plaintiff’s claim was not as closely tied to
the forum as Ford insists is required here. As the
brief of the Products Liability Advisory Council
(PLAC) observed (at 11), “Regardless of the precise
verbiage of the Court’s specific jurisdiction
decisions, however, the ineluctable fact is that they
all ultimately cited and relied on the fairness-based
reciprocity
and
proportionality
logic
of
International Shoe” (emphasis in original).
This understanding that International Shoe
permitted states to exercise personal jurisdiction
over companies regularly doing business that
broadly relates to their activities within the state
is most clearly illustrated by what the
manufacturer of the allegedly defective Audi did
not do in World-Wide Volkswagen Corp. v.
Woodson, 444 U.S. 286 (1980). The plaintiffs had
purchased the car in New York and the accident
occurred in Oklahoma. Plaintiffs sued the New
York dealer, the regional distributor for New York,
the importer, and the German manufacturer. Only
the dealer and the distributor, who were
independent of the other defendants, moved to
dismiss for want of personal jurisdiction, and
eventually prevailed in the Supreme Court, over

13
the dissent of three Justices. The other two
defendants never made such a motion despite the
fact that none of their Oklahoma activities had any
relation to the vehicle sale or accident in question.
If such a motion had succeeded, it would surely
have created a significant disadvantage for the
plaintiffs, and so the only explanation of why a
major company would have foregone that motion
was because it believed that International Shoe
made it a certain loser.
In Asahi Metal Industry Co., Ltd v. Superior
Court, 480 U.S. 102 (1987), the claims arose out of
a motorcycle accident in California in which one of
the defendants was a Taiwanese manufacturer of
the tube used in the motorcycle’s tire. That
company, as well as all of the other defendants
except the company that made the tube’s assembly
valve, settled with the plaintiff. However, under
Ford’s approach, all of the defendants would have
moved to dismiss for want of personal jurisdiction.
But that only happened when the tube maker tried
to use the California state courts to seek indemnity
from the maker of the assembly valve, which the
Asahi Court turned aside for lack of personal
jurisdiction, in a case bearing no similarity to
these.
Just like the dog that did not bark for
Sherlock Holmes, 4 the two cases that started the
4

Arthur Conan Doyle, The Adventure of Silver Blaze, in THE
COMPLETE ADVENTURES AND MEMOIRS OF
SHERLOCK HOLMES 1, 26 (Harper Bros. ed. 1894)l.

14
narrowing of personal jurisdiction have aspects
that confirm that, until recently, major companies
accepted that doing substantial business in a state,
as Ford does here, gave rise to being sued there, if
not for everything, at least for most claims. In
Goodyear Dunlop Tires Operations, S.A. v. Brown,
564 U.S. 915 (2011), two North Carolina residents
were killed in a bus crash in France, in which the
tires were made by non-US subsidiaries of the
defendant Goodyear USA, an Ohio corporation.
This Court ruled that there was no personal
jurisdiction over the non-US companies, which
would be the result under the test urged by amici.
But for these purposes what stands out is that
“Goodyear USA, which had plants in North
Carolina and regularly engaged in commercial
activity there, did not contest the North Carolina
court's jurisdiction over it.” Id. at 918.
Similarly, in Daimler A.G. v. Bauman, 571
U.S. 117 (2014), this Court held that there was no
personal jurisdiction in California over a German
parent company for the activities of an Argentina
subsidiary for harms that took place in that
country. Again, that ruling is plainly correct, but
what did not happen further confirms the
understanding that major companies and their
lawyers had regarding suits against them where
they were regularly doing business. This time the
dog that did not bark was the wholly owned
subsidiary of the defendant (MBUSA), which
regularly carried on business in California and
whose activities the plaintiff sought to attribute to

15
the parent in order to obtain personal jurisdiction
over that parent.
And, like Goodyear USA,
MBUSA never suggested that it was not subject to
personal jurisdiction there although, as the Court
observed, the parent’s brief contained a “suggestion
that in light of Goodyear, MBUSA may not be
amenable to general jurisdiction in California.” Id.
at 134. 5
In both Ford’s petitions and its merits brief,
the company cited a number of appellate decisions
that it claims created the problem that it asks this
Court to resolve by a further narrowing of specific
jurisdiction. Of them, only two involve product
liability claims, and in neither did a national
manufacturer assert a personal jurisdiction
defense. In Hinrichs v. General Motors of Canada,
Ltd., 222 So. 3d 1114 (Ala. 2016), a Pennsylvania
buyer of a General Motors car, made in Canada,
drove the car to Alabama where the accident that
injured his passenger-plaintiff happened. Plaintiff
sued General Motors, which defended on the
merits, until it went into bankruptcy and later
settled with the plaintiff. The reported opinion
involved a subsequent effort to sue GM Canada,
which was rejected because that company did no
business in the US and sold all its cars to GM US,
5

In addition, it was not until after Goodyear that BNSF first
raised a personal jurisdiction objection to suits in Montana,
even though it had been regularly sued there by residents of
other states, for non-Montana injuries, doubtless because of
its extensive operations there. See Brief for Respondents in
BNSF, 2017 WL 1192088, at *5-6.

16
with title transferred in Canada. Under amici’s
approach, but not Ford’s, GM, which sells cars
regularly in the forum state, would have to defend
the claim there, despite the fact that the car was
driven there from the state where it was
purchased. However, GM Canada could not be sued
in Alabama or Pennsylvania because it did no
business in either state.
The only other products case cited by Ford is
Montgomery v. Airbus Helicopters, Inc., 414 P.3d
824 (Okla. 2018). The most relevant fact is that
Honeywell, the maker of a helicopter replacement
engine that was sold and picked up by the Kansas
owner in Texas, never objected to personal
jurisdiction in Oklahoma where the accident that
was allegedly caused by the defective engine took
place. By contrast, both the Texas seller of the
helicopter and the Washington company that
assisted in the installation of the replacement
engine in Kansas, successfully moved to dismiss for
want of personal jurisdiction because neither did
business in Oklahoma. Once again, both results
are consistent with the standard offered by amici,
but under Ford’s approach, Honeywell would be
dismissed because it did not sell the engine at issue
in Oklahoma.
The Pro-Defendant Revolution and
the Proper Response to It
Ford’s personal jurisdiction argument in
these cases is not based on the holdings of either
Goodyear or Daimler, because the claims there had
no arguable relation to the forum, no matter how

17
broadly “relation” is defined. What has caused
these defenses to mushroom is the combination of
the Court’s hard line division of personal
jurisdiction into general and specific, and the so far
successful efforts of the defendant in BMS and its
amici to narrow the circumstances in which specific
jurisdiction is available.
The origins of this Court’s placing personal
jurisdiction into those two categories are footnotes
8 and 9 in Helicopteros Nacionales de Colombia,
S.A. v. Hall, 466 U.S. 408 (1984). The plaintiffs
there “concede[d] that respondents' claims against
Helicol did not ‘arise out of,’ and are not related to,
Helicol's activities within Texas,” so that only
general jurisdiction was available. Id. at 415. It
was in that connection, and relying solely on a law
review article, that the Court observed in note 8 (at
414, emphasis added): “It has been said that when
a State exercises personal jurisdiction over a
defendant in a suit arising out of or related to the
defendant's contacts with the forum, the State is
exercising
‘specific
jurisdiction’
over
the
defendant.”
Similarly, in note 9, the Court
remarked “When a State exercises personal
jurisdiction over a defendant in a suit not arising
out of or related to the defendant's contacts with
the forum, the State has been said to be exercising
‘general jurisdiction’ over the defendant.” Id.
(emphasis added).
There was no amplification of those
categories or any hint that they were more than a
shorthand description of the differences between

18
them, let alone that they in any way altered the
common understanding following International
Shoe. And they certainly did not portend a world in
which specific jurisdiction would be so narrow that
it would undermine the prior regime under which
defendants that had engaged in substantial
business in the forum state could be sued over
matters generally related to their activities there.
Nonetheless, this Court in Goodyear transformed a
description into a prescription, with no explanation
of the basis for doing so and no recognition that
nothing in Helicopteros supported that result, let
alone compelled it.
In their briefs, Ford and its amici focus on
the “arising out of or related to the defendant's
contacts with the forum” language as if it were a
quote from a statute or a part of the Constitution.
It is not. The phrases were an effort by authors of
a law review article to describe in general terms
how the two types of personal jurisdiction differed,
and they are useful for that limited purpose. But
that does not help decide cases like this, or the
many others cited in the briefs, where the “related
to” language can lead to wildly different outcomes
depending on the level of generality at which the
“relation to” question is asked.
Indeed, Ford’s brief rarely discusses the
facts of any of the cases, but typically argues based
on quotes offered without context, let alone with an
acknowledgement that none of them, other than
those identified by amici in the prior section, were
products cases against national manufacturers.

19
The most extreme examples are the multiple
citations to Walden v. Fiore, 571 U.S. 277 (2014),
which was brought in Nevada against a policeman
who, plaintiffs alleged, wrongly refused to return
their $97,000 in cash, taken from them in Georgia.
Plaintiffs sued for the temporary loss of the use of
their money which they needed to fund their
professional gambling. That case plainly did not
belong in Nevada, but its holding has nothing to
say about the right of these respondents to sue
Ford where their injuries from a defective car took
place. 6
In one sense, everything is related to
everything else, but that surely is not the right way
of looking at the question. Nor does it help to
include adjectives like “close,” or “relevant” or
“direct” or “material,” because that is simply
another form of question begging. Rather, the
proper way to think about this question is to put on
the International Shoe lens and consider whether
the claim by the plaintiff is one on which there is a
reasonable basis for having it tried in the forum
state, or is the plaintiff trying to gain an unfair
advantage over an out-of-state defendant.

6 Despite its heavy reliance on quotes from cases dissimilar
to these, Ford recognized that language from opinions should
not be treated like a statute, when it encountered a quote that
cut against its position. Pet Br. 36-37. Similarly, the quotes
from International Shoe supra at 11, refer to contacts of a
“corporation,” but no one would suggest that the test did not
apply to a partnership or a sole proprietorship.

20
Seen that way, these cases are not difficult.
The accidents that gave rise to these claims
occurred in the forum states and the plaintiffs
reside there, as do the other potential defendants
that are not a national business that made the
consumer product involved in the accident. Ford
surely does substantial amounts of business in the
forum states on a regular and consistent basis, and
although the vehicles at issue were not originally
sold in the forum states, thousands of cars like
them were. Thus, it is only happenstance that
these vehicles, rather than one sold initially in the
forum state, were involved in these accidents.
Under these circumstances, “the maintenance of
the suit [in these states] does not offend ‘traditional
notions of fair play and substantial justice’ and any
burden on Ford to defend these cases here as
opposed to somewhere else surely cannot be
considered “undue.” 326 U.S. at 316, 319.
Another useful way to examine whether
there is a reasonable relation between the claim
here and Ford’s presence in the forum states (as
Ford seems to agree, Br. 24) is by asking whether
Minnesota
and
Montana
could
have
constitutionally regulated Ford’s design or
manufacturing practices to comply with their laws.
Accord, PLAC Br. at 18; PHARMA Br. at 21. In
that situation the objection would be that the
Dormant Commerce Clause prohibited the state
from, for example, imposing a fine, or ordering a
recall, for failure to comply with a state’s
standards.

21
However, under the test in Pike v. Bruce
Church, Inc., 397 U.S. 137, 142 (1970), Ford would
lose unless it could show that “the burden imposed
on such commerce is clearly excessive in relation to
the putative local benefits.” As long as the state’s
standards were applied on a non-discriminatory
basis, as the tort principles on which the plaintiffs
will rely in these cases must be, Ford would be
subject to that regulation because selling hundreds
of thousands of automobiles throughout the United
States makes it entirely reasonable for every state
to be able to assure its residents that Ford’s
vehicles are safely designed and manufactured.
It is possible that a state could not regulate
the product because of federal preemption. That
possibility, however, provides further support for
amici’s test for two reasons. First, preemption is a
merits issue. Because the airbag that did not open
in Bandemer was subject to a federal standard
issued by the National Highway Traffic
Administration, the outcome in the case will be
subject to that standard no matter where the case
will be tried. Second, to the extent that Ford is
arguing that the law in Minnesota or Montana is
less favorable to it than where Ford would prefer to
be sued, federal preemption should largely
eliminate that contention. Therefore, just as in
International Shoe, where the state was permitted
to both impose unemployment taxes and collect
them in that state, Minnesota and Montana surely
have regulatory jurisdiction over Ford’s products
and can compel Ford to respond in their courts if

22
they contend that Ford has not lived up to its
obligations. 7
Coming Subtractions
The petition in this case is just the latest in
a series of efforts by major businesses to reduce the
number of jurisdictions in which they can be sued
over defects in products that they distribute across
the country. The question before this Court is
whether this goal, to subtract additional
jurisdictions from reasonable forums where
individual consumers would want to sue, will
succeed so that there are none left except those
favorable to defendants. 8
Two conclusions are clear from the briefs of
Ford and most of its amici: plaintiffs cannot sue
over defects in these Ford vehicles in the location
where their injuries occurred, unless the first sale
and the accident took place in the forum state.
Instead, they can sue where Ford is “at home,” in
Michigan where it has its headquarters, and
Delaware, where it is incorporated. In effect, Ford
The concept of using the Dormant Commerce Clause,
instead of the Due Process Clause to resolve issues of
personal jurisdiction where defendants are commercial actors
like Ford is explored in depth in Alan B. Morrison, Safe at
Home: The Supreme Court’s Personal Jurisdiction Gift to
Business, 68 De Paul L. Rev. 517, 539-555 (2019).

7

Because these cases involve automobiles, this brief will
maintain that focus. However, many of the same kinds of
problems for plaintiffs will also exist whether the product is
mobile, like a drug, a lawnmower, or infant crib, or
stationary, like a hot water heater or an air conditioning
system.

8

23
would receive a “jurisdictional windfall” whenever
one of its cars was resold or the original owner had
an accident outside the state where the car was
purchased. Limiting suit to those narrow venues is
unfair enough, but what if the cars at issue were
made by non-US companies, such as Daimler or
Toyota? Their homes are in Germany and Japan:
does that mean that plaintiffs could only sue them
there? Naturally, Ford and its amici refuse to
acknowledge that consequence. 9
At various places in the briefs, Ford and its
amici point out that the vehicles in these cases
were not designed or manufactured in the forum
states, which suggests that there might be specific
jurisdiction where either had occurred. On closer
examination, those possibilities do not offer much
benefit for these or most other plaintiffs for several
reasons. Starting with foreign auto makers, the
design and, in many cases, some or all of the
manufacture will be done outside this country. But
even if one or both occurred in the United States,
that is unlikely to have been where the accident
took place, which means that it will generally be
impossible to join other potentially liable
defendants. The result will be to multiply the
number of lawsuits, duplicate discovery and trials,

9 Citing to BMS, which had nothing to do with the issue, the
PLAC Br (at 12) blithely asserts that plaintiffs “could likely
sue even a foreign manufacturer in the U.S. state in which it
initially sold its product, such as to a nationwide U.S.
distributor.” Which is like telling plaintiffs here they can go
to Delaware to sue over an accident in their home state.

24
make settlements more complicated, and create
issue preclusion claims.
In addition, in most cases, plaintiff’s counsel
will be uncertain whether the defect that caused
the accident was in design or manufacture.
Defendants will not provide pre-filing discovery,
even as to where either or both occurred, let alone
regarding the nature of the problem. Thus,
plaintiffs may file in what turns out, under Ford’s
approach, to be a place without specific jurisdiction
because the tortious conduct occurred elsewhere.
At the very least the parties will be guaranteed to
spend time and money determining a non-merits
issue – which is one of the objections of Ford and
its supporters to the current rules on personal
jurisdiction.
Brief of Alliance of Automobile
Manufacturers in Support of Certiorari at 4
(decrying “widespread motion practice over
procedural issues that are collateral to the merits
of product-liability lawsuits”). Furthermore, if the
cause of the plaintiff’s injury is a design defect, that
is likely to have occurred at the manufacturer’s
headquarters or some other location with no
relation to the accident, thereby providing no
forum selection help to the plaintiff.
Ford makes much of the fact that the initial
purchasers of the cars in these cases were not
residents of the forum states. But it never concedes
(as the United States does, Br. 26-27) that, if the
first sale to the current owner had been there,

25
specific jurisdiction would be proper in these
states. 10
Reading between the lines, and noting the
focus on where the alleged wrongful conduct took
place as the basis for specific jurisdiction, it is
virtually certain that, in the next round of defense
personal jurisdiction motions, car manufacturers
will argue that, simply because the first sale
occurred in the forum state, is not sufficient to
establish personal jurisdiction. That, they will
argue, is because the company “merely” sold the car
there, which is not a basis for tort liability and
hence personal jurisdiction. Instead, they will
argue that they can only be sued at home, or where
the design or manufacture took place, producing
the same burdens for plaintiffs described in the
previous paragraphs.
But that is not the end of the devices that
auto makers are ready to use to avoid being sued
where the injury to the plaintiff took place, even if
the first sale took place in the state where the
accident happened. Even for the initial purchase,
the actual seller is not the Ford Motor Company,
but a Ford dealer, with an independent legal
ownership and control, as was the case in WorldWide Volkswagen. Indeed, in that case, and in
many others, there were two layers between the
manufacturer and the company that sold the car to
Even that concession by the United States does not apply
to cars that are re-sold or when a driver ventures out of her
home state, which is one of the main reasons why people buy
cars.
10

26
the plaintiffs: an importer and a regional
distributer. 11 And they take this position despite
Justice Connor’s statement for the plurality in
Asahi, 480 U.S at 112, that "marketing the

product through a distributor who has agreed
to serve as the sales agent in the forum State"
may subject the manufacturer to personal
jurisdiction.

To strengthen this argument, Ford’s lawyers
will advise it to be sure to transfer title to all its
vehicles either where the car is made or at Ford’s
headquarters, as GM did in Hinrichs, supra at 16,
so that Ford will never have even that presence in
any of the other states where its cars are sold. If
this argument seems far-fetched, it is only a slight
extension of the result in J. McIntyre Machinery,
Ltd. v. Nicastro, 564 U.S. 873 (2011), where a
supposedly independent distributer insulated a
United Kingdom manufacturer from being sued in
New Jersey where one of its massive and
dangerous machines seriously injured the plaintiff.
11 The Chamber’s brief (9, n. 2) makes clear by its quote from
Walden, and the assertion that the relevant forum conduct
must be by the defendant “himself,” that the defendants will
surely take the next personal jurisdiction step and insist that
only the independent dealer can be sued where the sale was
made. 12 See A. Benjamin Spencer, The Territorial Reach of
Federal Courts, 71 Florida Law Rev. 979 (2019) (argument by
member of Civil Rules Committee for expanding personal
jurisdiction of federal courts to protect plaintiffs). The Brief
of the United States (at 32-33) recognizes that the federal
courts are not bound by the same due process limits as are
state courts.

27
One final point about the briefs of Ford and
its business amici must be noted. The briefs are
very specific on where cases may not be brought,
but very short on where personal jurisdiction is
proper. Even in BMS, the strongest case for Ford,
the Court was clear that the non-California
plaintiffs could sue in their home states, where
they ingested Plavix and suffered their injuries, as
well as where BMS was at home, which is all that
respondents seek here. The sensible balance
struck in International Shoe, as reasonably
understood by major automobile manufacturers
until very recently, should not be abandoned as
Ford and its amici urge. That is because, as amici
now show, their alternative satisfies all the
reasonable needs of national manufacturers of
potentially dangerous consumer products like
Ford, while providing a reasonable forum for the
victim.
Amici’s Test is Reasonable
Amici urge the Court not to follow Ford’s
suggested path because it would unfairly tilt the
scales of personal jurisdiction in cases involving
products sold nationwide by major manufacturers.
Instead, the Court should hold that a state court
may constitutionally exercise personal jurisdiction
over a claim that the manufacturer of a potentially
dangerous product caused plaintiff’s injury in that
state, if the manufacturer sells substantial
numbers of that type of product in that state. And
the state may do so even if the first sale of the
product that allegedly caused the injury to the

28
plaintiff was not to the plaintiff and it did not take
place in the forum state. If that test is adopted,
none of the holdings of this Court’s recent personal
jurisdiction cases will be changed and the stated
goals of Ford and its amici will be satisfied.
First, amici’s objective test would be simple
to apply. There is no dispute that Ford sold
thousands of this make and model of cars in these
two states at all relevant times and that the
accidents occurred in the forum states. There
would be no need for discovery, which would
respond to a major complaint of DRI (Br. at 15).
Indeed, Ford would probably never make a
personal jurisdiction motion, just as national
product makers did not do until this Court issued
its ruling in Goodyear. For the same reason, the
result would be entirely predictable. And it would
not change the outcome in BMS, because the 592
non-residents would not satisfy the requirement
that their injury occurred in the forum state.
Second, Ford argues that personal
jurisdiction protects its liberty interests, but that
surely cannot mean at all costs to the interests of
others. In any event, Ford’s liberties are fully
protected: it is free to sell cars anywhere in the US
it chooses. But if it does so regularly, the price of
exercising that liberty is to have to defend its
conduct if one of its cars should injure someone in
a state where it sells those cars.
Third, it is fair to Ford. Ford knows that
some of its cars will turn out to be defective, but it

29
does not know which ones or where the defect will
be manifested.
But for that reason, the
happenstance of which car causes an injury, and
where that happens, makes the forum irrelevant
for Ford, except to the extent that it gains an
advantage from burdening the plaintiff. As this
Court observed in Phillips Petroleum Co. v. Shutts,
472 U.S. 797, 808 (1985), no matter where the case
is litigated, the defendant will have to “hire
counsel,” “travel to the forum,” “participate in
extended and often costly discovery,” and defend
itself at trial, including going to the location of the
accident even if Ford were sued at home. A ruling
in favor of respondents would not, as some amici
contend, (Chamber Br. at 15-16) be a green light to
sue drug manufacturers wherever a clinical trial is
held or where a small group worked on the design
of the product, unless that work was done in a state
where they sold their products and that state was
where the plaintiff was injured.
Fourth. Ford’s reference to the impact of this
case on its primary conduct (Br. 27, 29) is difficult
to assess, unless Ford claims that it made the
allegedly defect parts in these cases differently for
different states. Similarly, Ford’s suggestion (Br.
27) that its decisions about insurance coverage will
be affected by where it can be sued, cannot be taken
seriously.
Surely Ford’s insurance coverage
extends throughout the United States because it
knows that any given car manufactured by it could
be sold almost anywhere.
The defendant here sells its products
throughout the United States and these suits for a

30
defective product are brought where the harm took
place. Whether personal jurisdiction was proper in
these cases is all that the Court must and should
decide. As this Court did in North Carolina
Department of Revenue, supra at 6, it should limit
its “holding to the specific facts presented” here.
This is not a contracts case, where the parties can
settle the appropriate forum by negotiation. Nor
does the case involve component parts, sales to
business, sales by small businesses, Internet sales,
or torts like trademark or copyright infringement.
***
The end game for the auto makers is clear:
reduce the few remaining places where they can be
sued and effectively require plaintiffs to sue only
where the companies are at “home.” Failing that,
they may be able to confine suits against
themselves to an inconvenient, and, for the
plaintiff’s case, the generally unhelpful location
where the design or manufacturing defect arose.
The bottom line will be that the doctrine of
personal jurisdiction, which developed to prevent
plaintiffs
from
dragging
defendants
to
inconvenient and unfair jurisdictions, will have
become
a
sword
by
which
defendantmanufacturers can put themselves, not plaintiffs,
“in the personal-jurisdiction driver’s seat.” Brief of
Alliance for Automotive Innovation, at 4, 22.
The Court is still able to prevent this
massive injustice and produce a result that is fair
to all and quite predictable. It should do that by

31
affirming the decisions below and holding that a
manufacturer of potentially dangerous products
that sells them throughout the United States may
be sued in any state where the plaintiffs allege that
they have been injured as a result of a design or
manufacturing defect in the defendant’s product
(or the failure to warn of them). And if the Court
does not halt the march to allow major
manufacturers of consumer products to select the
forum in most product liability actions, Congress
may step in, as it did for class actions, and open up
the federal courts so that plaintiffs injured at home
can sue Ford and others that seek to avoid being
sued where their products cause harm. 12
CONCLUSION
For all of these reasons, the courts below
correctly concluded that the courts of their states
had personal jurisdiction over the claims against
the defendants in these cases. Accordingly, the
judgments should be affirmed, and the cases
remanded for further proceedings on the merits.

12 See A. Benjamin Spencer, The Territorial Reach of Federal
Courts, 71 Florida Law Rev. 979 (2019) (argument by member
of Civil Rules Committee for expanding personal jurisdiction
of federal courts to protect plaintiffs). The Brief of the United
States (at 32-33) recognizes that the federal courts are not
bound by the same due process limits as are state courts.

32
Respectfully submitted,
Alan B. Morrison
Counsel of Record
George Washington
University Law School
2000 H Street NW
Washington D.C. 20052
202 994 7120
abmorrison@law.gwu.edu
April 2, 2020

